No.

IN THE
SUPREME COURT OF THE UNITED STATES

GREGORY DEW — PETITIONER
vs.
LASHANN EPPINGER, WARDEN
PROOF OF SERVICE
I, Gregory Dew, do swear or declare that on this date, as required by Supreme
Court Rule 29, I have served the enclosed MOTION TO PROCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel by depositing an envelope containing the above
documents in the United States mail properly addressed and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Ohio Attorney General, 150 East Gay Street, 16th Floor, Columbus, Ohio 43215.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 1, 2021.

fee^ory D e

UJ

>

:543-986

